<html>
<title> - FEDERAL AND LOCAL GOVERNMENT SERVING FREDERICK'S DIVERSE SMALL BUSINESSES</title>
<body><pre>[Senate Hearing 116-140]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-140

    FEDERAL AND LOCAL GOVERNMENT SERVING FREDERICK'S DIVERSE SMALL 
                               BUSINESSES

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 8, 2019

                               __________

      Printed for the use of the Committee on Small Business and 
                            Entrepreneurship
                            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-872 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------        
        
            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                     ONE HUNDRED SIXTEENTH CONGRESS

                              ---------- 
                              
                     MARCO RUBIO, Florida, Chairman
              BENJAMIN L. CARDIN, Maryland, Ranking Member
JAMES E. RISCH, Idaho                MARIA CANTWELL, Washington
RAND PAUL, Kentucky                  JEANNE SHAHEEN, New Hampshire
TIM SCOTT, South Carolina            EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
JAMES M. INHOFE, Oklahoma            CHRISTOPHER A. COONS, Delaware
TODD YOUNG, Indiana                  MAZIE K. HIRONO, Hawaii
JOHN KENNEDY, Louisiana              TAMMY DUCKWORTH, Illinois
MITT ROMNEY, Utah                    JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri
             Michael A. Needham, Republican Staff Director
                 Sean Moore, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Cardin, Hon. Benjamin L., Ranking Member, a U.S. Senator from 
  Maryland.......................................................     1
Gardner, Jan, County Executive, Frederick, MD....................     1

                               Witnesses
                                Panel 1

Umberger, Stephen, District Director, U.S. Small Business 
  Administration, Baltimore, MD..................................     5
Griffin, Richard, Director of Economic Development, City of 
  Frederick Department of Economic Development, Frederick, MD....    11
Callahan Brady, Kathie, President and CEO, Frederick Innovative 
  Technology Center, Inc., Frederick, MD.........................    20

                                Panel 2

Collins, Terry, Co-founder and CEO, Blue Sources, LLC, Frederick, 
  MD.............................................................    34
Troutman, Masai, CEO, MASAI Technologies Corporation, Frederick, 
  MD.............................................................    44
Dorr, Emily, Owner and Creative Director, Postern LLC, Frederick, 
  MD.............................................................    59

                          Alphabetical Listing

Callahan Brady, Kathie
    Testimony....................................................    20
    Prepared statement...........................................    22
Cardin, Hon. Benjamin L.
    Opening statement............................................     1
Collins, Terry
    Testimony....................................................    34
    Prepared statement...........................................    38
Dorr, Emily
    Testimony....................................................    59
    Prepared statement...........................................    61
Gardner, Jan
    Prepared statement...........................................     1
Griffin, Richard
    Testimony....................................................    11
    Prepared statement...........................................    14
Troutman, Masai
    Testimony....................................................    44
    Prepared statement...........................................    47
Umberger, Stephen
    Testimony....................................................     5
    Prepared statement...........................................     7

 
                      FEDERAL AND LOCAL GOVERNMENT
                   SERVING FREDERICK'S DIVERSE SMALL
                               BUSINESSES

                              ----------                              


                        THURSDAY, AUGUST 8, 2019

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                     Frederick, MD.
    The Committee met, pursuant to notice, at 2:05 p.m., in the 
First Floor Hearing Room, Winchester Hall, Hon. Ben Cardin, 
presiding.
    Present: Senator Cardin.

OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, RANKING MEMBER, A 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Hello. Good afternoon. Welcome. First, I 
want to thank the people of Frederick for allowing us to use 
this facility for a Small Business and Entrepreneurship 
hearing. It is always good to be here in Frederick. I want to 
thank the staff of the Small Business and Entrepreneurship 
Committee for making all these arrangements, and I want to 
particularly thank Senator Rubio, our Chairman. I serve as the 
Democrat on the Small Business Committee, and during 
Congressional recesses, it is more convenient for us to do 
field hearings. And I thank the Chairman and the members of the 
staff for arranging this field hearing in Frederick County. But 
first I am going to recognize Jan Gardner because it looks like 
she is standing there. Jan does an incredible job as County 
Executive here in Frederick County. I will say a few more 
things about Frederick, but let me first turn it over to the 
County Exec.

   STATEMENT OF JAN GARDNER, COUNTRY EXECUTIVE, FREDERICK, MD

    Ms. Gardner. Well, good afternoon. I really wanted to be 
here today to welcome you Senator Cardin. We are always happy 
to have you come and visit us in Frederick County. We 
appreciate the good work that you do for our county, and our 
State, and our nation. I want to thank you for holding this 
hearing here today. We are really happy to have you. For 
those--I assume everybody here knows Ben Cardin. He has 
represented us and been dedicated to public service for many 
years. We knew him first in the Maryland general assembly and 
now as our U.S. Senator, and I know that you work hard for us 
every day on lots of Federal policies.
    I know you are an advocate and a national leader on 
healthcare, and retirement security, and the environment, and 
that today we are here to talk about the economy, and job 
opportunities, and small businesses, and supporting our middle 
class and our most vulnerable citizens. So for those of you who 
don't know, he is the Ranking Democrat on the Senate Committee 
on Small Business and Entrepreneurship. And we are really 
pleased to welcome you here and to have you here, and to 
support you in any way that we can in the future.
    We do have a great business community here. Between 2015 
and 2018, the small business partners that work out of our 
business development center at ROOT, which is right around the 
corner, helped more than 100 small businesses to launch, and 
they created about 350 new jobs so that more of our residents 
can work where they live. So thank you for all your efforts to 
help small business. We know you have introduced some bills 
lately to help our businesses, particularly underserved 
communities, afford loans through the Small Business 
Administration.
    And so, we are proud to have you here and appreciate all 
the work that you do. So with that, I will sit down.
    Senator Cardin. Well Jan, first of all again, thank you. I 
can assure you, I am familiar with the businesses this year. 
Myrna and I visit Frederick often. We love what you have done 
in Carroll Creek. We have visited, I think, just about every 
shop on Market Street. So we have spent some money in this 
town, and it is Main Street America.
    So we thank you very much for being that the type of 
environment which small businesses can flourish. Let me 
acknowledge that we do have the staff from the Small Business 
Committee that is here, both from Senator Rubio's staff and my 
staff, and we thank them again for all the work they did in 
making this possible. All I do is show up and everything is 
arranged. So we thank you all for being willing to do this.
    I do want to acknowledge we have representatives from 
Congressman Raskin and Congressman Trone's office. We thank 
both of those representatives for being here. Earlier today, I 
was in Washington County with Senator Van Hollen, and with 
representatives from Congressman Trone as we were able to see 
the grand opening of the aqueduct in Williamsport, and the 
groundbreaking for the C&O Canal National Headquarters in 
Williamsport, which is pretty exciting. We then went to the 
Museum in Hagerstown. So this has been a day in this part of 
the State. But the highlight is this hearing, so we thank you 
all for participating in this. Frederick is an incredibly 
diverse community for small businesses.
    The individuals in Frederick City identify 40 percent as 
minority. When you take a look at the demographics of the 
business community here in Frederick County, you find that 97 
percent are small businesses, but the diversity of the small 
businesses is extremely impressive. Over 7,200 women-owned 
businesses, over 3,000 minority businesses, over 2,000 veteran-
owned businesses that we have. This is a really diverse State, 
county, and city. So we recognize that, and we want to make 
sure that these tools are working. So today's hearing is how 
the Federal and local Governments are serving Frederick's 
diverse small business community. And we have incredible panels 
here that will help us in dealing with this. Frederick itself 
is a magnet for technology.
    There are a lot of great institutions here, not the least 
of which is Fort Detrick, which has some of the most highly 
sophisticated lab work in the world. It spins off technology 
that is critically important, that can be developed by 
companies. The commercialization of new technologies has been a 
highlight of this region. So I am interested to know how the 
tools of the Small Business Administration, how the tools 
available to small businesses, have helped develop this climate 
here in this region, and what we can do more effectively in 
looking at the tools that are available. Can they be fine-
tuned?
    Senator Rubio and I are going through a process of 
reauthorization of all the tools under Small Business 
Administration, and we have had a number of hearings throughout 
this year that have been very helpful for us in dealing with 
it. We have, of course, the procurement availability, 
particularly from the Federal Government. The PTAC office here 
is, I believe, the closest to Maryland's office at College 
Park, but there are eight other offices that are available, 
which was developed by the Department of Defense to help 
specifically with technology growth with small companies in DOD 
procurement. How is that working? Are there things that we can 
do better? What more can we do to help?
    It is interesting that you have a strong veterans 
community, but there is no VBOC that is located here. It is 
something I want to talk to Mr. Umberger about, as to why 
Maryland, a State that has one of the largest concentrations of 
veterans, why we do not have a Veterans Business Outreach 
Center located in our State that could assist veterans in 
getting more opportunities under the Small Business 
Administration. If you are here, you have to travel 60 miles to 
go to Springfield, Virginia, in order to get assistance.
    We do have HUBZones in Frederick County. There are five 
HUBZones in Frederick County, three located within the City of 
Frederick. Interested as to how that is operating. That gives 
you an advantage on procurement. Is it working the way it is 
intended? We have heard that some of the restrictions in 
HUBZones as far as where your employees must live may be an 
impediment and we want to hear from our witnesses today whether 
there are ways that we can try to improve that. Women-owned 
businesses. You have a branch of the Women's Business Center, 
which is headquartered in Rockville, Maryland, located here in 
Frederick.
    I also find this amazing that the State of Maryland does 
not have a Women's Business Center in Baltimore. Now, I know I 
am here in Frederick, but it seems to me we could have more 
than one Women's Business Center and is that impacting the 
opportunities of women businesses here in this community? The 
Small Business Development Center, I believe headquartered at 
Frostburg. You have a presence here and you have a presence in 
College Park. Interested to know how that is working and 
whether we can do things a little bit differently. You have a 
SCORE Mentoring program here. That is good.
    We have had some controversies nationwide on the SCORE 
programs. It is a valuable program. Interested in how that is 
working, and we are always wanting to hear from our witnesses 
on the SBA's financing tools that are available. We know the 
two major tools, the 7(a) and 504 that it has been challenging 
for underserved communities to get those loans. Interested in 
what we can do to help.
    I recently filed legislation that would make the 7(a) 
Community Advantage program, which is a pilot program now 
making it into a permanent program under the SBA because it has 
a much better success rate in reaching the underserved 
communities. And I have also filed legislation on the Office of 
Emerging Markets to help underserved communities in how they 
can access the tools of the Small Business Administration.
    So there is a lot we can talk about, and we got two 
excellent panels. In the first panel we are going to hear from 
Government officials who are working at the national level, our 
District Director, and here in the county to help small 
businesses, to get your perspective. And then from the second 
panel we will have the opportunity to hear what people who are 
in the field, business owners, as to how we can do a better job 
in promoting small businesses. Why do we want to do this? I 
think you all understand that small businesses are the engine 
of growth in our country. It is not only where most jobs are 
created, and most jobs are created in small businesses. But it 
is also where innovation takes place. Where people figure out a 
better way to do things. Where they take technology and turn it 
into an innovative approach to dealing with our Nation's 
problems.
    So we want to have the most healthy climate possible. This 
area is blessed. You are rural to a certain degree, but yet you 
are very much connected to both Baltimore and Washington, you 
have incredible institutions that are located here and close 
by. This is a place where people want to work, live, and do 
business. So there are a lot of good things going on here. How 
can we help to make it better?
    And with that, I am going to introduce our first panel. 
Starting first with Steve Umberger. Steve has been at the SBA, 
I have been told, for 25 years. An incredible record. He has 
been a great friend. We share an office building together. That 
is not exactly accurate. We are in the same office building in 
downtown Baltimore. But Steve is the Director for most of the 
State of Maryland, including areas here in Frederick, and we 
would be interested in his perspective as to how the SBA tools 
are being used, and how perhaps we can even be more effective 
in reaching out to the small business community here in this 
part of our State.
    Richard Griffin is the Director of Economic Development, 
City of Frederick Department of Economic Development. I 
understand you also have 25 years of experience in this field, 
17 years as the Director. So we can hear how things have 
changed over your career here in Frederick County.
    And Kathie Callahan Brady, who is President and CEO of 
Frederick's Innovative Technology Center, FITCI, and we welcome 
how Frederick has been able to use this tool in order to help 
small businesses. So we will start with Mr. Umberger first, and 
we will go right on down the line. And for all of you, your 
full statements will be made part of the record. You can 
summarize as you see fit, but I want to get into a 
conversation.

 STATEMENT OF STEPHEN UMBERGER, DISTRICT DIRECTOR, U.S. SMALL 
             BUSINESS ADMINISTRATION, BALTIMORE, MD

    Mr. Umberger. Good afternoon, Senator. Thank you for all 
your advocacy for small businesses across this great State and 
thank you for your support of our programs both at the national 
level end in our Baltimore district. I am Steve Umberger. I am 
the District Director of the Baltimore District Office. And 
like the Senator said, I have a territory that covers the State 
of Maryland with the exception of Prince George's and 
Montgomery Counties.
    Now, much of what I wanted to say, was going to say, you 
have mentioned but I will just kind of reiterate that of the 
SBA resources other than myself and my staff traveling around 
the State, we do spend a decent amount of time in the Frederick 
County area, City of Frederick. And we also have SCORE 
America's counselors to small business represented here. We 
have a Small Business Development Center, both of which are 
Federally funded through my agency, Representative in 
Frederick.
    The Women's Business Center which you mentioned is located 
outside of our district headquarter, and Rockville also has a 
counselor here. So our federally funded resource partners, part 
of SBA, are all located right here in Frederick. Some of the 
other things that we have that we provide, and I can provide 
some numbers as to our business development and contracting 
programs, the flagship program our 8(a) business development 
program. As we all know, the Federal Government is the Nation's 
number one purchaser of a wide variety of goods and services. 
Our main program, or the 8(a) program is a socio- and economic 
development program, and the businesses, in order to qualify, 
need to be in business for two years.
    Currently, there are 10 firms in Frederick County that are 
active in the 8(a) program. We also over offer historically 
underutilized business zones, HUBZone certification, Service-
Disabled Veteran certifications, and Women-Owned Small Business 
certifications. All these certifications let these companies, 
once they have obtained them, gain a leg up on Federal 
contracting. Twenty-three percent of all Federal contracting 
needs to go to small business, and there are subsets for each 
of these that require the agencies to focus their efforts on 
HUBZone, on 8(a), on Service-Disabled Vet, and Women-Owned 
firms. We have nine HUBZone firms in Frederick County. We have 
57 Service-Disabled Veteran-owned firms certified in Frederick 
County, and we have 138 certified Women-Owned small business 
firms in Frederick County.
    So there are a fair number of firms out there that have 
acquired certifications through SBA, mainly through assistance 
from my office, and we think that is a good representation on 
average based on what we have in the entire State. The number 
one challenge for small businesses, as we all know, is access 
to capital, and SBA, although we do not make loans directly, we 
act as a guarantor, and with the tools provided by Congress and 
by our agency, we reach out to many national and community 
lenders who are all within our portfolio of roughly 90 lenders 
in the State. We reach out to them to keep them up to speed 
with the requirements to make sure that they are using our 
programs, and we also entertain and look for, search out 
lenders that may have at one time used our programs, but for 
some reason they may have a myth that is causing a barrier to 
the get them to what today's processes actually look like.
    So we reach out to them and recruit, re-recruit and recruit 
new lenders. The 7(a) program is the flagship program and it 
can be used for a number of reasons. Certainly any business 
need, furniture, fix your machinery, equipment, inventory, 
receivables, and that covers pretty much the gamut on what our 
7(a) loan is for; 708 entrepreneurs throughout our district 
received SBA guaranteed loans in Fiscal Year 2018, which was 
October 1st, 2017, through September of 2018; 708 deals for 
over $236 million. In Frederick, there were 81 deals to small 
businesses, 81 loans to small businesses, for over $35 million, 
just over $35 million.
    Senator Cardin. This is a very--we should get this in 
Washington.
    [Laughter.]
    Mr. Umberger. Did I put that on hold?
    Senator Cardin. No, you are fine.
    Mr. Umberger. So those totals I gave you, that includes 
7(a) and 504. The 504 loan is focused on real estate 
acquisition or improvement, major capital equipment purchases, 
and both the 7(a), 504 program have a ceiling of $5 million, 
which was recently increased, I would say over the last 5 
years, from $1 million and $2 million, depending on certain 
circumstances, $5 million, which is being used a lot more by 
lenders.
    And we see from time to time in our top 10 lenders they may 
do one loan, but it may be for $5 million, and that creates a 
lot of jobs and a lot of opportunities in different 
neighborhoods throughout our State. That is what I have brought 
with me.
    And again, I want to thank you for everything you do for us 
and the small businesses across this great State of Maryland 
and thank you to the committee for this opportunity.
    [The prepared statement of Mr. Umberger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Well, thank you very much.
    Mr. Griffin.

STATEMENT OF RICHARD GRIFFIN, DIRECTOR OF ECONOMIC DEVELOPMENT, 
     CITY OF FREDERICK DEPARTMENT OF ECONOMIC DEVELOPMENT, 
                         FREDERICK, MD

    Mr. Griffin. Good afternoon. It is a pleasure to be here. I 
would like to just take a moment to introduce that I have two 
of my staff. Mary Ford-Naill is a Manager of Economic 
Development for the City of Frederick, and Emma Damazo is an 
intern in my office, headed down to UVA in the fall. And I know 
that I saw Alderman Roger Wilson in the back, one of my elected 
officials. I do not think the Mayor was able to join us yet in 
the room, but he may yet. So you did your homework on 
Frederick. You had a lot of the great statistics that I had in 
some of my testimony, so I will not repeat those, but what I 
will say is that 44 percent of the 73,000 people that make up 
the City of Frederick represent themselves as individuals of 
some color or ethnicity, but when you look at the percentage of 
minorities and women that own businesses in Frederick, there is 
a gap. We are about 26.2 percent.
    So we have a gap between the representational population 
and the business ownership of somewhere around 18 percent, and 
it is that gap that we are working on every day between our 
partners at Frederick County Economic Development and the city 
to try and increase minority ownership, women ownership, and 
veteran and service-disabled ownership. And we are making some 
progress. I would like to just highlight a few of the things 
that together with Frederick County Economic Development that 
we have been working on jointly.
    First, let me say that City of Frederick and Frederick 
County get recognized nationally now for high quality of life, 
for our high-quality workforce. In fact, recently WalletHub 
recognized Frederick as one of the most diverse cities in 
America. We came in number eight, and we have been the fastest 
growing community in Maryland for Asian and Hispanic 
population. So we are a quickly diversifying community. One of 
the challenges that we have had at the city and the county is 
identifying and reaching out to that gap, to those individuals 
who might be interested in starting a business or operating a 
business, whether that is creating a new business, or 
franchising a business, or whatever.
    And so we have had to be resourceful. And a couple of the 
things that we have done have been, you know, I think it worked 
out kind of interesting. For instance, trying to reach out to 
all households in the city is complicated but we figured out 
that water bills go into every single household. So we took 
flyers and put flyers in every water bill going out to the city 
saying, if you are interested in starting a business, if you 
are an entrepreneur, if you are minority and women business and 
you need assistance, reach out to us. And from that we have 
gotten a dozen or more companies that have emerged, individuals 
that want to start companies, and now are working their way 
through the process of building business plans and doing the 
things necessary to grow their business. But we understand that 
growing that number or shaving down that gap is a process that 
starts back in school and it does not end until, you know, 
people are in business for themselves and to succeed.
    So the Frederick County Public Schools, for instance, has 
put in place programs like the LYNX program, which is linking 
students, and businesses, and high schools so that students 
from a very early point in their education get a chance to see 
what it is like in different career settings and grow some 
understanding of how businesses are formed and how businesses 
are started.
    We have worked with the State of Maryland, the Governor's 
Office of Small Minority and Women-Owned Business Affairs to 
put on programs like the Ready, Set, Grow! program. We had 80 
people participate in that program when they came out to hear 
about the various resources that are available to, you know, 
minority and women-owned companies to move their business ideas 
forward and get the various financing.
    We work with SBDC and obviously SCORE and others to try to 
provide many of those services, and I will highlight that in a 
moment. Frederick County took a leadership role in creating the 
Frederick County Minority Vision program, and I think perhaps 
you are going to hear more about that, but that program is 
specifically intended for small businesses and opening doors to 
Government, public-private resources for minorities and women 
to start businesses and assist them with the division that they 
need to have in order to be able to pull that off. That is a 
year-long program. That has been very successful with a number 
of graduating classes now.
    And then finally, you know, we work with the city and the 
county on procurement so that our own procurement offices are 
trying to award more of our--in the city's case $20 to $30 
million in controllable spending each year, awarding that to, 
you know, capable and successful MBEs that, you know, would be 
part of the pool of applicants for that type of work. And we 
are just starting. The Mayor did a pointed panel to try and 
provide advice to the city on policies that it might undertake 
to encourage and improve in procurement activities.
    While we do not do business plan assistance in our office, 
we refer to a number of partners, and you have heard some of 
them, SCORE, we recently did a franchise event with them, the 
Small Business Development Center where they provide no-cost, 
obviously, counseling to a lot of different business types, the 
Maryland Women's Business Center who I think you will hear 
from, our technology incubator and acceleration. We knew that 
taking and providing resources to technology companies, many of 
whom you are going to hear all about, are women and minority 
owned. It was critical and we have had now many graduates from 
that program. Tech transfer, you are going to hear from tech 
transfer. We have really worked hard to try and promote 
programs to get the technology off of Fort Detrick and the 
National Cancer Institute as well as other Federal facilities 
in Maryland to companies so that they can commercialize that, 
sell it on the private market, sell it back to the Government 
when necessary, and we have had a lot of success. You are going 
to hear from one of those companies.
    And finally, I would just like to recognize the fact that 
the nonprofits in this community provide an immense amount of 
support in the area of minority- and women-owned business 
support. Centro Hispano, working with the Hispanic community, 
the Spanish-speaking community of Maryland, the Asian American 
Center of Frederick, the Maryland Hispanic Chamber, the 
Maryland Black Chamber, the Maryland Washington Minority 
Companies Association, and then finally even the State of 
Maryland created the video lottery terminal fund out of the 
lottery proceeds to assist small minority- and women-owned 
businesses across Maryland through capital financing, and that 
data resides with the Maryland Department of Commerce, but has 
been successful. And I would like to end on just saying that 
the Federal HUBZone program has been successful here in 
Frederick.
    We have been successful getting companies to relocate to 
Frederick or to open up businesses in Frederick specifically 
because of that HUBZone program. Now, we only have in the City 
of Frederick six of the, I think, the nine HUBZone certified 
companies that are in Frederick County, six of them are in the 
City of Frederick, which is a small percentage of the total in 
the State. I think there are almost 400 in the State, total 
381, with the largest number of gain, amazingly enough I did 
not realize, in Baltimore City. But those companies do depend 
on that program initially to get started.
    The challenge that they have and the reason we have heard 
that there aren't more of them is the difficulty in being able 
to hire employees that live in a HUBZone because of the, you 
might not have enough housing to support that. And then 
finally, the making sure that they have a plan for 
transitioning off of that HUBZone program as that certification 
ends so that they have an exit strategy into more normal 
contracting processes.
    And so we have lost a few companies that have gotten to the 
end of the HUBZone certification and went away. We have had a 
few that have made the transition. We have a few that, you 
know, have relocated to other parts of the State. But one 
thought that I have seen the State of Maryland do is that 
cities within the State are priority funding areas, and that is 
because traditionally or over many years you saw a lot of jobs, 
and a lot of companies, leave our urban communities go to the 
suburbs. It might be interesting to think about a model instead 
of the smaller HUBZone, a HUBZone that matches the urban 
boundaries of the city, which would allow for more housing to 
be in that zone and more potential to hire from that zone as 
well.
    I think in closing, clearly small businesses are the heart 
of the community. You said before, 97 percent of our businesses 
are small, and we are working every day with the county to try 
and deliver the services that they need in order to shave that 
gap down and get our minority and women businesses closer to 
the representational percentage they are in our community.
    Thank you.
    [The prepared statement of Mr. Griffin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Thank you for your testimony.
    Ms. Callahan Brady.

    STATEMENT OF KATHIE CALLAHAN BRADY, PRESIDENT AND CEO, 
  FREDERICK INNOVATIVE TECHNOLOGY CENTER, INC., FREDERICK, MD

    Ms. Callahan Brady. Good afternoon, Senator Cardin, County 
Executive Gardner, other elected officials. My name is Kathie 
Callahan Brady. I am the CEO of Frederick Innovative Technology 
Center, also known as FITCI. We are actually a 501(c)(3). We 
were created 15 years ago as a public-private partnership, and 
we work with many clients whose businesses hinge on SBA 
support.
    And so firstly I want to say thank you and thank you for 
being here and giving us your attention. Right now we have 49 
clients. That is up from 15 clients three years ago. And, thank 
you. They are still talking about you coming out to meet them. 
There are also the 49 clients that we talked about. Each one of 
them has looked to apply for SBA programs. So I asked each one 
of them, along with our number one small business loan 
officers, which is M&T Bank, they told me that 20 SBA loans 
were, this particular year, in Frederick of the 340 across 
Maryland.
    And I also asked some of our other banks who don't lend as 
much to SBA, and so my testimony is really their input on this. 
So one of the things that they said was local access is one 
reason that was mentioned by a woman-owned disadvantaged client 
company. She noticed that the process was lengthy but during 
that time she had to drive out of Frederick County to 
Montgomery or Howard County to connect with appropriate 
offices. The good news is she said that the benefit was 
invaluable, and it increased her business as well. Another----
    Senator Cardin. Did you meet with bankers or did you meet 
with people to help her with that?
    Ms. Callahan Brady. I meet with people to help her. Her 
belief was that those offices were not here. Another client 
spoke of the Federal contracting, saying that it has gotten 
very difficult since 9/11 for small businesses to really go 
about finding out the requirements. And so their suggestion was 
to really potentially increase sole-source opportunities among 
the 8(a) HUBZones and WOSB firms.
    Another client talked about making it easier for the 
average small business owner to compare the SBA loan programs, 
including the qualifications on what makes a good candidate for 
each program. And another client suggested that SBA could 
highlight or reinforce the importance of the applicant's 
relationship with his or her banking, and the banker's role for 
the SBA loan process. Another client suggested offering 
predetermined terms on defaults would be helpful since they 
believe that the SBA loans are often given to people who are 
shortfall on collateral or a higher risk. Input from the banks 
that I had spoken to, they said banks are not lending as much 
on the smaller loans as they believe that they are becoming 
significantly less profitable.
    And they also noted that a few years ago, they said it was 
either two to three years, there used to be a program where 
they waived the fees on loans that were under $150,000. And of 
course, that program has closed, and they believe that that is 
a result of fewer small loans being approved, which is what 
most businesses need. And for all of the loans, they talked 
about the process being cumbersome, and long, and therefore, 
costly, and was hoping that there could be a program put in 
place for these loans that are smaller than $50,000 to 
potentially cut some of the process or even the bank's SBA 
relying on the bank's process.
    And with that, I hope the suggestions are helpful.
    [The prepared statement of Ms. Callahan Brady follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Well, thank you. Thank you, all three of 
you, very much. They were very helpful, and I want to get to 
some of these points but let me first start with the point that 
you raised about having to travel to get help because as I look 
at the SBA tools, they have been developed over a period of 
years. A particular Congress might feel like they should do 
something to help veterans, and later Congress might well do 
something to help minority businesses, and other Congress might 
want to do something in regards to women-owned businesses, and 
they sort of layer these programs on top of each other and they 
are not consistent on all of the procedures that are used or 
all the opportunities that are available.
    So in Maryland, we do have a very diverse small business 
community. As I said in my opening comments, I am surprised 
that for entrepreneurship help, we do not have what I would 
think is a representative number. We have none for veterans, 
one for women with a satellite office in Frederick, but nothing 
in the Baltimore area. That does not seem to be adequate for 
the needs that we have in Frederick or through the State of 
Maryland. Your observations, am I right? Obviously that was one 
of the points you raised, but what can we do to change that?
    Mr. Griffin. One thing that we hear from the providers is 
that there is not enough bandwidth. In other words, there are 
more businesses that need assistance than there is bandwidth 
sometimes to assist or it takes longer, and clearly, the 
further they have to go for that assistance. Now, today some of 
it can be done digitally or over the phone, but clearly we have 
a much better and higher take-up rate with people that can meet 
in person here in Frederick than we do on the longer distance 
connections. But I would just like to say that bandwidth, in 
addition to distance, bandwidth is an issue.
    Senator Cardin. And Mr. Umberger, I know that there has to 
be a private sector interest. There are also funding 
challenges, etc., but if the State of Maryland wanted to set up 
a second Women's Business Center, and they had the interest to 
do it, how would they go about doing it under the current 
setup?
    Mr. Umberger. What we need to do is obviously have the 
funding made available, and it was about, I want to say two 
years ago, a year and a half ago, so January of 2017, that we 
had a Women's Business Center located in Salisbury, 
headquartered in Salisbury. They had, a couple of years prior, 
worked on developing a position in Baltimore City. They opened 
a branch in Baltimore City. Then a year and a half ago, they 
contacted me to tell me that they were closing, out of the 
blue, no discussion. We had been in constant contact. We are 
always in contact with our resource partners and this was just 
out of the blue, they are closing the Women's Business Center. 
So that put us out of Baltimore City. That put us out of 
Salisbury in the Eastern Shore.
    Rockville, WBC had come along outside of our territory, 
worked with Kiesha Haughton Smoots and had some discussion back 
and forth, and then the office in Frederick was born. But in 
the meantime, there was an appropriation, a request for 
proposal put out by SBA across the country limited to five 
locations, of which Baltimore was not one, that I was able to 
go to them and say we need one. I want Baltimore added to that 
list. They did a supplemental to it, added Baltimore to the 
list.
    So Baltimore, even though that was what was listed, it is 
Baltimore District that would therefore cover our State. There 
was some interest and the RFP closed. The proposals were 
analyzed, and we were not one of the successful proposals. So 
that leaves us in this syndrome of waiting till resources 
become available again. We know of one in particular that would 
be very interested in expanding across the State, in particular 
into Baltimore. We would be more than happy to have them submit 
a proposal.
    There are a couple other folks that I have heard from, but 
obviously with historical record and the track record, there 
may be a leg up with what already exists in expansion scenario, 
but the money and the folks----
    Senator Cardin. Let me follow up on this for one second 
because there has been some interest in the Rockville Centre to 
expand to Baltimore, and I know Rockville comes under the 
Washington office not under your office, but they cannot do it 
unless the grant level is increased above its current limits of 
the grant level. One of the areas under consideration in our 
committee is to increase the limits on the Women's Business 
Center to a higher number. I am not sure that is the right 
answer for services in Maryland, but that is an avenue that may 
be available to expand services. And of course the Frederick 
office is under the D.C. District, not under the Baltimore 
District.
    Mr. Umberger. Well, Frederick is in our office, but the 
headquarter of the WBO----
    Senator Cardin. Yes, I get that.
    Mr. Umberger. Yes. I am sorry.
    Senator Cardin. So that does create a little bit of 
confusion and that certainly is one of the things that we are 
always interested is accountability, and there are so many 
different lines that are inconsistent on drawing accountability 
here. So let me get to veterans. Why don't we--I mean Maryland 
is--explain to me, I know you have the local interest. We have 
a great deal of veteran interest. Why don't we have a VBOC 
here?
    Mr. Umberger. I cannot answer that question. Again, we 
have--a proposal came out, I supported an entity from Maryland. 
The folks from Virginia made an application, the folks from 
Maryland made an application. I am not the decision maker. The 
decision was made to put this VBOC or expand the VBOC that 
existed in Virginia to cover Maryland, Pennsylvania, Delaware, 
Virginia, D.C.
    We do in fact have a representative from that VBOC that 
focuses his efforts in Maryland. And we do the Boots to 
Business program, which we had one in Frederick here back in 
March, that is run by them. But we really are the ones that 
support the curriculum and provide the instructor, one of the 
instructors. SBDC typically participates. SCORE many times has 
a part of that. But to answer the question as to why we don't 
have a VBOC is a tough one for me to answer because I don't 
know why. We should have one. I fully agree.
    Senator Cardin. Ms. Callahan Brady, you raised several 
issues I have heard over and over again, the difficulty of 
applying for a 7(a) loan, the trying to find a banker who is 
interested because their interests today are not what they were 
10 years ago or 5 years ago. We do not have many community 
banks available anymore, so you have to go through a much 
larger banking bureaucracy, which is not always sensitive to 
small businesses, particularly, you know, outside of a major 
urban center.
    So we hear about that. We hear about the costs. We have 
tried to do a couple things to counter that, and I am 
interested in your views. We have the micro-loan program, which 
can be pretty quick in getting money out. It is a small loan, 
but it has a much better record with underserved communities. 
And we could try to expand that program. We have the 7(a) 
Community Advantage pilot program, which are smaller loans, and 
has a much faster track time, and has a much better record on 
reaching, particularly minority businesses. And then we have a 
fee waiver program that is modest at this stage.
    But Congress is looking at expanding the fee waiver 
programs to try to make SBA loans less costly. It may require a 
change in statute. It certainly requires an appropriation. So 
there are two hurdles to get to that point, and I am interested 
as to whether you think that would help or is it just a lack of 
interest from commercial bankers to deal with businesses 
particularly in underserved communities?
    Ms. Callahan Brady. That is a lot to jump into. It is 
definitely not a lack of interest in the banks and stuff here. 
They definitely want to. I have got great relationships with 
all of the banks here. They spend quite a bit of time with our 
small businesses. They are always looking to see what they can 
do to help. So I think all of the things that you mentioned, 
yes, absolutely it could help. I would love to be able to, and 
you know we are happy to host it, either at our Metropolitan 
Court location or our ROOT building here, but why couldn't we 
do something as simple as--so we work really closely with SBDC 
out of Frostburg, and they spend a lot of time in our 
facilities doing teaching and training.
    The Rockville Centre that I hear about all the time has so 
many amazing resources. What if they just came up once a month 
to start with? Your VBOC, why don't they come up once a month, 
and we have on a consistent basis. We all work together as a 
community so well to be able to get those resources and to 
allow people to know about those types of resources that are 
available, and they are here on the third Wednesday or whatever 
it is you decide. So maybe it doesn't have to be this big huge 
funding effort and we could do something tomorrow.
    Senator Cardin. Mr. Griffin, you mentioned the HUBZones, 
and there is a challenge here. The requirements for people, for 
the employees, to live in the HUBZone is intentional because we 
are trying to help that community. It is an underserved 
community and we want to make it clear that we want it to 
benefit the community, which is within the zone, but you raised 
some legitimate concerns. The city like Frederick is not that 
big of a city. From the point of view of its workforce being 
able to get to a job pretty much anywhere within Frederick, 
that is not the issue. So are you suggesting that we change the 
geographical area where the business can be located, or the 
geographical area where the employee could live from to 
qualify, or both?
    Mr. Griffin. That is good. What I was suggesting was that 
some of the programs that the State has for assistance, for 
either underserved or rehabilitating neighborhoods and retail 
corridors and things like that, is done on a municipalwide 
basis, so the boundaries of the programs are the same as the 
boundary of the municipality. And I know that greatly expands 
the area, and maybe that takes the program to a much different 
place financially, but the likelihood that you would have more 
companies participating and being able to hire if the geography 
was slightly larger, I think, is more likely. You would have a 
lot better participation.
    Additionally, I believe, if I am not mistaken, it is not 
required that all the employees be in the HUBZone that the 
business is located in, so that is helpful. And we do have some 
companies that have had relationships. For instance, we had a 
tech company in Frederick that had an office up in Frostburg as 
well. And I want to say they had some employees in a HUBZone up 
there working, they were programmers, and they also had an 
office here, and working back and forth. But it seems as though 
that is the biggest challenge for these companies, and 
sometimes they have to incent their employees to consider 
living in the HUBZone in order to be able to meet that 
requirement.
    Senator Cardin. Yes, well, you are correct. There is a 
percentage that must live in the zone, which raises an issue. 
On any given year, if you ask small businesses what is their 
number one concern, Mr. Umberger, you are right, access to 
capital will always be in their top tier of issues. In previous 
years it has been access to healthcare for their employees. 
That has changed dramatically for two reasons, one the 
Affordable Care Act, there is no requirement of companies under 
50, but secondly, there is now an exchange of available so they 
can at least have access to health insurance products.
    We can argue the affordability, etcetera. That is a 
separate issue, although we do have some credits available for 
smaller companies, but what is now making the top three 
regularly, which didn't before, is access to workers, trained 
workers. So if you are a large company, you have a lot more 
opportunities for how to attract workers than if you are a 
small business. So I think it is past time that we consider 
programs to help small businesses in trained workforce. I am 
curious as to what is being done here in Frederick, and whether 
the SBA has any partnerships with workforce development offices 
to help small businesses obtain qualified workers. Whoever 
wants to start on that.
    Mr. Umberger. We do not have any specific programs, but I 
do know, and to confirm your statement, absolutely as I have 
traveled through the State and I have managed to get myself 
into a couple meetings on workforce development, it has become 
the number one issue. Eastern Shore, there were five county 
economic development entities represented, and there were three 
jobs for everyone one employee available. There were two jobs. 
There was half an employee for each job. You know, it is just a 
negative number everywhere you go.
    Some of the things--in a stretch scenario to address 
workforce development, we do go into the inner city in 
Baltimore, to the libraries, and we encourage younger 
individuals, high school kids, middle school children, to 
attend or their parents and learn about small business, about 
starting a business, but it is not the trade education or the 
trade training that we need. So other than being aware and 
attempting to reach different audiences that we typically 
would, we don't have any special initiative that would focus on 
workforce.
    Mr. Griffin. Frederick County, I believe, probably is 
leading the State. We are certainly one of the leaders in the 
State in terms of what it is doing with workforce development. 
The Frederick County Workforce Services Organization provides 
and retrains an enormous number of workers into our local 
businesses, including some of our startups. We have had some 
companies who have relied solely on employees that have come 
out of Frederick County Workforce Services to populate, you 
know, their staff, and the one really crucial thing is that the 
Frederick County Workforce Services will do all of the upfront 
vetting of employees to take that load off the business 
initially, so that the only employees that they kind of passed 
through to them are qualified, capable, you know, trained 
individuals. But they will do skills training and things like 
that.
    Clearly, across every industry right now, the number one 
thing that we hear soon as we walk into the business is being 
able to find and retain the workforce that they need. And part 
of that is inherent in our current economy with low 
unemployment, but also we are trying very hard to grow certain 
industries here in Frederick. Biotechnology is one of them and 
gaining critical mass where employees from around the country 
see Frederick, Maryland, as a great place to be in the biotech 
industry and come here. And that helps our small start-up 
companies because now you have got someone with years of skills 
working in the biotech industry, coming up here into this 
market, maybe even starting a business. I hope that answered 
your question.
    Senator Cardin. It does, and I would invite you, if you 
have suggestions on how we could incentivize more help for 
small businesses and workforce development, let us know. We are 
scheduled to take up the Work Innovation and Opportunity Act 
reauthorization, and our committee will try to get some input 
into that for special help for small businesses. It is not 
within our jurisdiction, the bill, but we will try to influence 
the final reauthorization to include help for small businesses. 
So if you have suggestions on how we could help you tailor that 
more for the smaller companies, that would be helpful.
    Ms. Callahan Brady. One suggestion. I completely agree with 
you. We talk about capital all the time and then it is 
workforce. Actually Terry and I were just talking right before 
this started. He needs 25 new people. You know, what a great 
problem to have. But some of the things I know my clients look 
at and really depend on is the schools. We utilize interns 
quite a bit so if there is anything we can do on that.
    There are also the apprentice programs have been phenomenal 
here, as well as if there is anything else that we can do for 
that would be tremendous as well.
    Senator Cardin. And we are looking at the apprenticeship 
programs in regards to small businesses because we do put a lot 
of confidence into that for trained workers. So, absolutely. I 
want to ask you one more question, if I might, about the SCORE 
program here. I am curious whether any of your businesses are 
using the mentoring available through the SCORE program here in 
Frederick County, and how effective that is.
    Ms. Callahan Brady. Actually, several of them. We work 
really closely with them, so a lot of our clients are the same, 
many of them. We work together in terms of putting together 
what their business model is, and then they spent quite a bit 
of time going over our business plan and then shoot them back 
to us. That is their key to fame is really spending time on 
that comprehensive business plan.
    Senator Cardin. Good. And Mr. Griffin, you are shaking your 
head. So it has been working well here in the county. There has 
been some recent controversies in regards to the SCORE program 
but unrelated to the program here at Frederick County, I assure 
you of that. So there have been some challenging audits that we 
have had.
    Mr. Griffin. The SCORE program here has been very helpful. 
We have referred many clients over the years to SCORE who come 
back and say that they have gotten great services out of that 
program. We have a good relationship with the local leadership 
of SCORE. In fact, as I mentioned earlier, we did an event 
recently with them on franchise development because for some 
people, you know, starting a business might not look the same 
as it does for someone else. Maybe the idea of opening a 
franchise is an option for them, and so we had a whole program 
on that using SCORE and it worked out very well. We had a 
number of people participating.
    Senator Cardin. So you talked about bandwidth, how the 
bandwidth--in regards to the various services that are 
available, which ones are the most taxed right now?
    Mr. Griffin. I would say they all--out of the response we 
get back out of the SBDC counselors, out of the Women's 
Business Center, out of SCORE is that they will continue to 
accept new clients, but that they all have very low bandwidth 
to be able to get very deep. They can only scratch the surface. 
They aren't able to go quite as deep as they would like with 
each company because there are so many companies in need of 
their services.
    Senator Cardin. Well, that is certainly a challenge, but it 
is a good challenge to have. I mean, it just shows that the 
interest is there, so the entrepreneur spirit and the desire is 
needed. You should not have to travel 60 miles. It should be 
available to them.
    Ms. Callahan Brady. Absolutely, and that makes it even more 
complicated. I agree, bandwidth is tough. We are having at 
FITCI quite a bit as well. I mean we are going to have to close 
our program off as well. If you were looking at the ones that 
have probably the largest bandwidth, and this is my opinion, I 
am seeing it with SCORE because we work with them quite a bit 
and I am looking for a specific skill set, and they are tapped 
out. I would also say the Women's Business Center. I think they 
are pretty much tapped out as well. SBDC has probably got the 
best resources, and then of course the veterans and procurement 
is just kind of non-existent up here.
    Senator Cardin. I have one final question. I think I will 
start with Steve on this, and that is, it has been frustrating 
on contracting, to get small businesses prime contracts because 
of the size of the contracts, the failure to fund procurement 
offices within different agencies so that they do not have the 
capacity to look beyond traditional suppliers, the new category 
management programs where they are trying to save money by 
making things big which makes it impossible for a small company 
to be able to get a prime contract. And the list goes on and on 
and on.
    We try to deal with this in a couple of ways by dealing 
with abuses in bundling. We have also dealt with it by certain 
requirements between prime contractors and subcontractors. I am 
just interested as to whether you see this as a problem in our 
region or in Frederick, and whether this is something we really 
need to put more attention on how we can get more prime 
contracts to small businesses.
    Mr. Umberger. Well, what I see is a challenge there is, 
obviously you are going to have a firm regardless of what 
certification they may be able to obtain from the SBA, that has 
to first, they should already have had their foot in the door. 
They should have been doing some sub work for primes that are 
Federal contractors to gain the experience, so that when they 
go to the agency, they can position themselves and represent 
themselves as being fully capable of obtaining and performing 
on a prime contract.
    The main challenge I see is with those procurement 
officials at the agencies themselves. As a small business, I 
need to have the experience, the capability, and the expertise. 
Then, I have to prove myself to those contracting officers and 
specialists that have been doing certain things a certain way 
for a number of years. How do I break through that barrier to 
get the prime is up to me, and I have to continuously, until I 
find an opening or can provide the proper--really that is a 
heck of a challenge. It is a tough question to try to answer.
    That would be the scenario if it were me to get there, but 
then breaking through that last final step to obtain the prime 
contract for many is insurmountable. So we probably could use 
some guidance to the agencies themselves as to what they need 
to do to assist and increase the number of prime offers that 
they put out.
    Senator Cardin. Of course, I really do think this is a 
major responsibility for the SBA in Washington. We are going to 
have a confirmation hearing on a new Director, and I expect 
this will be one of the areas that we will want to know how 
well of an advocate we will have on behalf of small businesses 
with other agencies, because if you do get into turf issues and 
how much--we have done a very good job on the 23 percent. That 
has been a sea change in the last decade. So that has been 
done. Subgroups, not quite as well, but the 23 percent we have 
done fairly well. Is this a problem in Frederick?
    Mr. Griffin. We do hear, from time to time, with some of 
the companies that are contracting with Federal agencies that 
smaller companies are having a hard time getting in the door 
for prime contracts. I am not that familiar with the specifics 
of it so I cannot go into a lot of detail, but I can say that 
one of the things that I have heard, and we hear this at the 
city level as well, is that for the smaller companies to get 
the bigger contracts, the amount of, you know, financial 
capacity that they have to have in place in order to be able to 
show that they can fulfill the contract, or in our case 
sometimes it is a bonding issue of the city or whatever.
    Those are significant hurdles for small companies to 
overcome, but beyond that I can't comment any further. I just 
don't have that much detail on it.
    Senator Cardin. That is helpful, and I would invite all 
three of you, if you have ideas on this, just let us know. In 
regards to tech transfer, which I know is a big issue. 
Particularly in this community, tech transfers are very, very 
important for the types of businesses that are starting out 
here. We passed laws and statutes and we have--we try to 
encourage this, but if there is a way that we can make it 
easier for innovative people to be able to use technology for 
commercialization, please let us know as we go through this.
    Thank you all very much. Very helpful.
    Mr. Umberger. Thank you.
    Mr. Griffin. Thank you very much.
    Senator Cardin. We will transition to the second panel. And 
I will introduce our panel first. Mr. Terry Collins, who is Co-
founder and CEO of Blue Sources in Frederick, Maryland. In 
preparation for the hearing, I was trying to understand your 
business. It seems fascinating how little fish can help us 
determine----
    Mr. Collins. Sir, I am happy to tell you whatever you can 
stand to listen to.
    [Laughter.]
    Senator Cardin. It sounds fascinating.
    Mr. Collins. It is pretty wild stuff.
    Senator Cardin. It impressed me. Masai Troutman who is the 
CEO of MASAI Technologies Corporation in Frederick, an SBA 
HUBZone certified minority business enterprise MBE. And we have 
Ms. Emily Dorr, the Owner and Creative Director of Postern LLC 
of Frederick, Maryland, a woman-owned business. It is a 
pleasure to have all three of you here. We will start off with 
Mr. Collins.

 STATEMENT OF TERRY COLLINS, CO-FOUNDER AND CEO, BLUE SOURCES, 
                       LLC, FREDERICK, MD

    Mr. Collins. Senator, I want to thank you for the 
opportunity to appear today, and give testimony, and discuss 
Blue Sources' experiences using small business resources 
provided by Federal, State, and local Governments available in 
Frederick County, and the City of Frederick, and the State of 
Maryland. I am Terry Collins, the CEO and Co-founder. There are 
two other partners who are not here with me today and that is 
our Executive Chair and Co-founder P.J. Bellomo, and our other 
Co-founder David E. Barr. And David is in charge of our Federal 
business development area of which we think that will do a lot 
of business in that area. But I would also like to thank Kathie 
Callahan Brady of FITCI for cooperation and working together in 
preparing the testimony for today.
    Blue Sources is a FITCI client, so Kathie has had a lot to 
do with where we have gotten today and getting us along in this 
process. What we do, as you have already read, is provide a 
product and a service that detects acutely toxic chemicals in 
drinking water sources and wastewater effluent. Our customers 
are public water utilities, industrial wastewater treatment 
facilities, and the U.S. military. It is in use in the U.S. 
military today, actually. Our aquatic biomonitor product relies 
on a group of bluegill fish to constantly test water for acute 
levels of toxins used by using computer algorithms to measure a 
fish's biological responses, such as respiratory rate.
    The aquatic biomonitor is essentially an early warning 
system. It does not tell you what is in the water, but it tells 
you that something there is a problem, and it is up to you to 
figure out what it is. The fish tell us when something is wrong 
with the water right before we might normally know. Blue 
Sources was formed in the second quarter of 2015 after 
discovering the aquatic biomonitor technology at a Technology 
Transfer conference at the BWI Airport Marriott in Q4 of 2014.
    We stumbled across this. The aquatic biomonitor technology 
was invented and developed by the U.S. Army Center for 
Environmental Health Research, which I am going to call 
USACEHR, their acronym, at Fort Detrick, Maryland. A USACEHR 
research scientist at the conference explained the operation of 
the aquatic biomonitor and how the bluegill fish managed to 
tell us when toxic chemicals are present in our drinking water 
sources and wastewater effluent. This is essentially a canary 
in the coal mine, is what it boils down to.
    A short time after that initial meeting, Blue Sources 
signed a patent license agreement with the U.S. Army and a 
Cooperative Research and Development Agreement with USACEHR. 
And that process was started through the Office of Research and 
Technical Applications with the U.S. Army's Medical Research 
and Development Command at Fort Detrick, where their ORTA 
office is. Federal technology transfer is a massive opportunity 
to license technology invented in defense labs and use it to 
build, innovate, and expand businesses. Discoveries made by 
Federal scientists and engineers are patented and then offered 
for businesses to license, which enables businesses to 
commercialize the technology and then sell to the private 
sector or back to the military.
    The U.S. Army's Office of Research and Technical 
Applications, the ORTA, facilitated the tech transfer process 
and agreements required to transfer the technology and 
knowledge of this device, the two mechanisms most often used by 
Federal laboratories for technology transfer or patent 
licensing agreements, and the CRADA, the Cooperative Research 
and Development Agreements. Legislation creating technology 
transfer in the CRADA established the requirement that a 
company or entrepreneur applying to license a Federal 
Government invention must submit a plan for development and 
marketing of the intervention and make a commitment to bring 
the invention to practical application within a reasonable 
amount of time. You have to tell them how you are going to do 
it, and how you are going to sell it, or they are not going to 
give you the patent license. It is that simple. You have got to 
have a plan.
    TechLink is the DOD's partnership intermediary organization 
that facilitates technology transfer between Federal labs and 
the private sector. The process of licensing technology from a 
Federal laboratory from start to finish usually takes about six 
months. Ours was about four months in total. Went by pretty 
quickly, I thought, but it can be as short as one month. 
TechLink was an intermediary between Blue Sources and the U.S. 
Army patent attorneys. TechLink's assistance and guidance was 
instrumental in paving the way for easily acquiring our 
exclusive patent license with the U.S. Army.
    A CRADA is a written agreement between a Government 
laboratory and a private party to work together on research and 
development of new technologies. Our CRADA with USACEHR 
afforded Blue Sources with a way to collaborate and build 
valuable relationships within the USACEHR organization. Our 
CRADA with USACEHR was the primary tool by which technology and 
technical expertise is transferred from USACEHR to Blue Sources 
personnel.
    Our CRADA allows USACEHR to provide staff access to 
facilities, equipment, data, and other resources, not funding, 
with payment by us or without payment or by providing in-kind 
services, which is what we are doing with Fort Detrick today. 
Having this level of access to USACEHR was critical to our 
success for commercialization of the fish biomonitor system, 
which is what we are calling the technology that we developed. 
Frederick Innovative Technology Center, Inc., as I said 
earlier, we are a client and it is the local business incubator 
and accelerator, and without it, I doubt that we would have 
been as far along as we are today. We joined FITCI in July of 
2016, when we realized that we needed help getting this company 
off the ground.
    At this point, we had already bought patent licenses. We 
had our CRADA in place. We needed to figure out how to get 
funding and things of that nature to get where we were going. 
We had experience in running existing businesses, but I had 
never started one from nothing. So I know how to run a 
business, but I had never taken one from the ground up. Kathie 
Callahan Brady found Blue Sources that summer and convinced us 
that we would benefit from the programs and connections that 
she could offer. She was right.
    As CEO of Blue Sources, I participated in FITCI's Strategic 
Growth and Advisory Board, and other advisory coaching 
programs. Kathie Callahan Brady introduced us to the Maryland 
Technology Development Corporation, TEDCO. TEDCO provides 
resources and connections that early stage technology companies 
need to thrive in Maryland, including funding. Blue Sources 
maintains an office at FITCI in an environment that is 
conducive to success. Everything we need as a business can be 
obtained in some way through FITCI.
    As we progressed through programs at FITCI, it became 
apparent that Blue Sources needed an experienced resource to 
guide us through the process of starting funding and growing 
our business, as Mr. Barr and I had never been through that 
process. Kathie Callahan Brady introduced us to Mr. P.J. 
Bellomo, who had taken several early stage businesses from 
nothing to success. P.J. joined Blue Sources as a full-share 
partner. We didn't just let him in. He had to write a check, as 
we both did since we were self-funded initially, in January 
2017 and was key to helping us obtain our SEED funding from 
TEDCO and other sources. TEDCO provided Blue Sources with 
mentoring, resources, expertise, and connections to find SEED 
funding. Essentially, they provided it.
    Our first contact with TEDCO was Mr. Chuck Ernst, the Rural 
Business Innovator Mentor for the Western region, which 
includes Frederick County. Chuck Ernst introduced us to TEDCO 
programs and helped us navigate the process of applying for 
SEED funding. As we prepared our pitch to TEDCO for funding, 
Chuck mentored our progress throughout the funding process. 
SEED funding was received from TEDCO in Q2 of 2017. Blue 
Sources had the funding to commercialize the fish biomonitor 
technology developed by USACEHR.
    A commercially viable fish biomonitor product was completed 
and available for sale in Q1 of this year. So we have something 
to sell now. Additional funding. With the SEED funding provided 
by TEDCO, Blue Sources completed several production-ready fish 
biomonitor system devices. This will give Blue Sources the 
jumpstart needed to close additional sales and to raise 
investor funds for expansion, but we will use our sales money. 
All of it will get poured right back into the business. So we 
are going to bootstrap ourselves initially. We need to get 
traction before we can go looking for funding in many other 
places. So in Q4 of this year, Blue Sources will sell multiple 
units to several Washington, D.C., area water utilities.
    Some of these utilities have committed verbally to 
purchases once they have received funds from grant applications 
submitted by the Metro Washington Council of Governments to the 
Department of Homeland Security Urban Area Security Initiative 
grant program. These grants were awarded in May of 2019 and the 
utilities will see their portion of the grant in October of 
this year. So our purchases are imminent. Funds from the sale 
of these FBS units to the D.C. area water utilities will be 
plowed back into the business for marketing, additional 
manufacturing of more FBS units, and hiring Blue Sources' first 
employees. Essentially, we will bootstrap the next phase of 
growth. Once we have gotten some traction, we will start 
looking around for larger investors.
    We are actually doing that right now to start talking to 
people and get that process going because we know we are going 
to close these additional sales. But we are looking, we are 
being pretty particular about who we want to fund our business. 
We want funding and investments from people that are already 
involved in the environmental science space. So we are looking 
for those investors through channels that Mr. Bellomo knows of 
and looking to get the first round of funding so that we can 
greatly expand our offering as quickly as we can.
    I will say one thing about all this. I have been in Federal 
contracting as a vendor and a contractor for more than 40 
years, and this is probably one of the best experiences I have 
ever had in going through this process with the Department of 
the Army, the county, and the city, FITCI, the State of 
Maryland, all the programs that we have used. Everybody has 
been exceptionally cooperative. The information has just 
flowed. Anything we have needed and asked for, we have pretty 
much received it.
    It has been a great experience for us.
    [The prepared statement of Mr. Collins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. We rarely hear from happy campers, so it is 
good.
    [Laughter.]
    Mr. Troutman.

     STATEMENT OF MASAI TROUTMAN, CEO, MASAI TECHNOLOGIES 
                   CORPORATION, FREDERICK, MD

    Mr. Troutman. Good afternoon. Thank you, Senator Cardin for 
inviting me to testify today. My name is Masai Troutman and I 
am the CEO of Masai Technologies Corp. MTC is a small 
advantaged business in HUBZone company with over 20 years of 
private and public sector information technology services 
contracting experience. MTC is a prime contract holder with the 
GSA, Schedule 70 for IT services and healthcare IT.
    The National Institute of Health, CIO SP3, a HUBZone 
category, contract, in the State of Maryland Consulting and 
Technical Services plus contract. MTC began doing business in 
Frederick, Maryland, as a prime 8(a) HUBZone certified business 
in 2004 on a $2.6 million contract providing enterprise 
logistics, and financial application software support and data 
analytics for the Army Medical Material Agency.
    At MTC, we also partner with local Frederick small 
businesses and we provide internships and mentorship for the 
high school students. In my experience, effective business 
operation within the public sector requires continuous 
marketing by the small business and by directional goodwill 
actions from Government, contract officers, and program 
management throughout the five-phase procurement process. That 
process entails vendor outreach, where the vendor markets and 
the Government agency then cultivates that pool of vendors to 
make sure they are ready to bid when opportunities come out. To 
capture, process number two, where the vendor is going to drill 
down and try to find the specifications of the requirements, 
and really understand if we should be investing our time or 
not.
    Then there is the proposal phase, the award, and then 
program execution, and closeout. I am going to highlight how 
the improvements that I see in that procurement process, and 
what I have been able to experience here in the Frederick 
County, are doing business. From the vendor outreach phase, I 
work a lot with Frederick County's Minority and Business Vision 
program. They do events every month. They invite minority and 
small women-owned businesses, and they train us on--they talk 
to us about how to finance, how to do financing with your 
business, networking, marketing, and different business 
development skill sets that you will need in order to function 
as a business here in the county.
    The State does a great job as well as running the Ready, 
Set, Grow!, different events they have all around the county, 
and all around the State. We attend those and we meet with 
program managers, and they give us forecast and insights on 
what is coming so we can put together teams and we can get 
financing and get ready to bid and compete. In 2018, we bid as 
a subcontractor, as a minority business enterprise 
subcontractor on a State of Maryland contract that required, 
going to say 7 or 8 percent minority business enterprise, like 
African American, set aside for subcontracting.
    We bid as a sub with a prime and we won an award. We bid in 
July 2018. By January, we got the award, and we have key 
resources on the contract. So some recommendations I have on 
the outreach. Our outreach phase is to make sure we do partner 
the Government partners with those nonprofits, the local and 
national nonprofit, that can service the Frederick County area, 
African American, Latinos, those underrepresented demographics, 
with training on how to bid, on how to obtain financing and 
market, technical skills. I am in IT and a high demand of 
technical skills such as cloud computing on AWS, Microsoft 
Azure, Cloud, artificial intelligence, machine learning, 
programming, Python, getting Python certifications. Those type 
of skill sets is what my business would need as a HUBZone.
    To take people who could be in lower income, we got to 
educate them so that we can make the 35 percent and maintain a 
HUBZone status, and keep winning work, and keep hiring people, 
but they got to have skills, and those skills can be learned. 
As far as outreach, we work with Fort Detrick sometimes. They 
run a SMART PROC annual conference here in Frederick where they 
bring their program managers out and they market to small 
businesses. Fort Detrick has lowered its HUBZone. Its HUBZone 
is set aside to 1 percent. The DOD standard is 3 percent, and 
my recommendation to them would be to start locally and let's 
work together to identify the contract vehicles of HUBZone like 
the CIO SP3 has a HUBZone category. We have teams with 
different skill sets under us, team members. We can deliver 
services that can help Fort Detrick to get its numbers back up 
to 3 percent from the 1 percent they dropped it to.
    And in the capture process, that is where we as vendors, we 
go and we try to get more detailed to see if we should be 
investing our money, our time, to going after these contracts. 
And on a Federal level, locally, Fort Detrick puts out a 
forecast and we look at those forecasts to see if we can get an 
order to go for those bids if it is worth it to us. At the 
State level, they do a lot of industry days where they invite 
us in, and we meet with the program managers. And they share 
their pain points and problems, and we can really shape our 
solution and partnering to say, hey, we can bid on this or not.
    So I think definitely on the State, city, county level, 
they definitely need more industry days, more forecast provided 
to us small businesses, and a person of color small businesses 
and HUBZones, more key performance indicators and goals set for 
subcontracting. So definitely have set asides, I think on the 
city level and county level, I don't think that set-asides 
exist. I think we need them because on the subcontract level 
and on the prime contract level, they need to be enforced. I 
don't think that they are being enforced.
    And in many cases if they are on the city level, or the 
county level. I use the State as an example because those set-
asides they have on the prime and sub, they enforce it. When we 
thought we were not going to get utilized by the prime that won 
the contract, I called the contracting officer and they did a 
group meeting between myself as a sub, the prime, and they said 
is there a problem here, and the prime said no, there is no 
problem. We are using MTC. They will be great, and we have one 
of the top key personnel on the contract.
    One of the last things I want to say, the proposal process, 
when we are responding to a solicitation, the solicitations, I 
say, definitely we want to look at the Government providing, 
again, more set-aside similar to the State where they have set-
asides for minority business enterprise, women. They break 
minority business enterprise down to, they say African 
Americans like 7 percent, they say Latinos, because in IT these 
are the groups that are underrepresented.
    So they make sure you say hey, you want to have goals to 
try to make sure they get a fair chance. Track the contracting 
of HUBZone utilization to make sure not only dollars but the 
number of small businesses being awarded contracts are growing, 
because basically they are just bundling funding a couple 
contracts with vendors they like and they are just giving them 
all the work, and that is not really growing the economy the 
way we need it to. IDIQ contracts are big contract vehicles 
that we are on.
    We have to make sure that they are opened up so that new 
players can participate, especially with category management 
coming, those contract vehicles will be used more to make 
purchases. So I mean, those are the type of things that we are 
seeing. More monitoring and enforcement of the subcontracts and 
the percentage goals for the prime contracts, and definitely 
set-aside work.
    And more so, sole sources for the, at least SDB HUBZones. 
HUBZones that SDB, like MTC, we do not see many HUB sole 
sources. We get a lot of opportunities to subcontract but the 
prime contracts usually are through some type of vehicle, and 
we have three vehicles. If they don't come out under those 
vehicles, we really don't get access to them, but we get a lot 
of opportunities to sub.
    So we are big on enforcing subcontracting enforcement of 
percentage goals.
    Thank you very much.
    [The prepared statement of Mr. Troutman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Thank you for those comments and 
recommendations. Ms. Dorr.

 STATEMENT OF EMILY DORR, OWNER AND CREATIVE DIRECTOR, POSTERN 
                       LLC, FREDERICK, MD

    Ms. Dorr. Thank you for having me here today, Senator 
Cardin, and for everybody else in the room that is here to 
participate, thank you for being here. I am a much smaller 
business than I think some of the businesses you have heard 
from already today, and maybe a little bit less sophisticated 
but still have a lot of needs to help grow my business.
    I purchased my business two years ago after having worked 
for the previous owner for 19 years. It was Jean Peterson 
Design. We were a small graphic design studio at the time, and 
I saw the opportunity to grow the business to a full-service 
marketing agency, boutique size, but still full service, 
offering services such as copywriting, public relations, 
management, digital marketing. So services far outside of just 
the graphic design area. Mostly because I think there were many 
businesses doing solely graphic design and there is a 
tremendous amount of freelancers in that industry.
    So having been in business for 20 years as Jean Peterson 
Design and developing the base that she had, I saw it as a 
great opportunity for myself and even for the businesses in 
Frederick to have another full service agency to turn to. So 
since, I think, during the transition time was probably where I 
needed the most help, but it happens all the way up until 
today. Talking to bankers today about expanding my access to 
capital. So I would say during the first year, we were able to 
maintain all of our existing clients and even grow.
    In the last two years, we have grown our employees too. I 
am about to hire the fourth new employee. We started off as a 
five-person business when I bought it. So we have not lost any 
employees, have not lost any clients, anything. We are 
foreseeing our vision of growing into that full service agency, 
including eight new clients in the last two years to use in 
that capacity from planning their strategies, to budgeting, to 
all the way down to the graphic design services we are very 
well known for. We work with clients in various industries from 
nonprofits, profit, for profit, Government departments, a 
couple of them are here today. We work with the hospitality 
industry working with businesses such as Visit Frederick, 
recently winning The Visitor Guide for Howard County that we 
will do in 2020.
    And so, as we grow, the things that a business like I need, 
I find sometimes hard to locate when I am doing research 
myself. I know there are several people in the room that I turn 
to on a regular basis and ask for assistance, including Richard 
Griffin in the city Office of Economic Development and the 
folks at the county Office of Economic Development. As a 
business, we have used the Frederick County Workforce Services 
program that you have heard about already today. They have 
helped us with sorting through and sifting through resumes when 
we are hiring for certain positions and picking out some of the 
people that are the best qualified for the job.
    We have hired people through that program and some which 
are still employed in the office today. I think the majority of 
my assistance though comes from the people that I hire, such as 
my bookkeeper, and accountant, and lawyer, and business coach. 
I haven't necessarily used the services outside of work for 
service and a handful of other things. I am not a women-owned 
certified business. There are only very few times where that 
would come in handy to me that I know of, and so I think that 
is probably where I may offer resources or information to you 
is that the information that I think I need, I find kind of 
hard to find sometimes, and so the information that I would be 
looking for things in the area of corporate planning, growth of 
the business, leadership training, human resources management.
    Right now, we are in the process of possibly expanding our 
services again, deciding whether to set it up as a sub-company, 
a sister company, acquiring the additional capital to do so, 
and a lot of times it happens. And as you acquire new contracts 
and things like that, so I think that would be the other thing 
that would be helpful to me is being able to find those 
resources more quickly than I have been able to find them. And 
I think that is all I have.
    [The prepared statement of Ms. Dorr follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Well, I thank all three of you for giving 
us some real life examples. So between Mr. Troutman and Ms. 
Dorr, you have two different views on the importance of being 
certified to have single source contracts. You are relatively a 
young company from the point of view of your ownership. You 
have, it looks like, a comfortable list of customers. Are you 
doing Federal Government procurement?
    Ms. Dorr. No. We do answer some RFPs that are put out by 
local Government like the Howard County Office of Tourism and 
different departments within the Frederick City and Frederick 
County, but not large scale of Federal contracts.
    Senator Cardin. And of course the State has its own 
certification programs also, but you had, from the business you 
bought, at least a list of clients to work with, so you didn't 
find it necessary to go down that route?
    Ms. Dorr. No, not necessarily. Neither did the person 
before me.
    Senator Cardin. Right. Mr. Troutman, you seem to think that 
the certifications are critically important, both your 8(a) 
originally as well as now your HUBZone for single source 
contracts that otherwise would not be available to you. It 
seems like that is what you are saying. So the certifications 
here were critically important for your business to grow?
    Mr. Troutman. Yes. Yes, the HUBZone has primarily been 
beneficial on the subcontract level. When it comes to prime, I 
have not been getting direct prime. We now have a HUBZone prime 
contract IDIQ vehicle with the CIO SP3 by NIH. Now we see more 
opportunities with bidding as a prime, but just having a 
HUBZone certification to bid as a just a company off the 
street, from what I do, there were not many opportunities.
    Senator Cardin. Why not? Did you win prime contracts? Are 
they too big?
    Mr. Troutman. Yes, I mean we have done prime contracts, and 
it is just a lot of work. When I had 8(a) it was a lot easier. 
It was a lot easier because they could sole source. Now with 
HUBZone, not many sole sources are awarded to HUBZones, but a 
lot of the enforcement is on the subcontract level, so we get 
to--partnering with a lot of the big companies, they will bring 
us in to be their sub. That is my only thing. Let's get more 
HUBZone sole sources, more HUBZone direct contracts, but it is 
actually going the opposite. It is going to the big vehicles, 
contract vehicles. That is what we have right now.
    Senator Cardin. And Mr. Collins, as I said, if you finish 
your remarks, we don't normally get people as satisfied as you 
were as witnesses, but you have helped at both ends here, which 
is not typical of a tech transfer startup company. You had 
helped here in the county in two respects, one from the county 
on its FITCI opportunities. You were in an incubator so you had 
the shelter of an incubator that was interested in your 
business growth and started you off in a way that you could 
take advantage of opportunities.
    And then you had TEDCO, which is a State operation that 
takes a look at tech transfer and provides extra attention. So 
you were protected and helped by both the county as well as by 
the two local Government agencies. We facilitate tech transfer 
through a Federal statute, the Tech Transfer Act, but you 
explained that the tools that are available for technology to 
be commercialized. It is very interesting that a lot of 
taxpayer dollars go into basic research.
    We all know NIH, but DOD, a lot of money goes into 
research, and then they come up with technology that could be 
used to keep our water supply safe, not necessarily from DOD's 
interest, they have some interest in that, but we allow that to 
be commercialized and you took advantage of it. So, my question 
to you, and you may not be able to answer it, what can the 
Federal Government do more to encourage more happy campers like 
you?
    Mr. Collins. I don't have an answer, but I have an opinion.
    Senator Cardin. Okay.
    Mr. Collins. Alright. So after going through this process, 
and as I told you, I mean we literally fell across this 
technology. I was at that conference to look for something 
completely different. I have another business that is in the 
same space as Mr. Troutman, and we were looking for a different 
type of product that had been developed by a Federal agency 
because there were a lot of them there. A couple of the three-
letter agencies there. A couple of the military, Fort Detrick 
obviously, but we found this because I said, oh there is Fort 
Detrick, let's see what they are doing.
    I have found in going through that process that the 
military and Government in general are not very good marketers. 
So a lot of people probably don't know about technology 
transfer or the products that are available, even though that 
information is freely available. There is websites TechLink has 
a website where you go out there and search through their 
database of products. The local ORTA office out at Fort 
Detrick. They have a database that you could sort through for 
the research and development that they do in the medical 
industry. They have already approached me about, is there 
anything else that you would like to develop as a product, and 
I said, let me get this one done first, then we will see about 
that.
    But I think that somehow find a way to advertise this more. 
I just happen to drive down to go to that one because it was, 
you know, easy to get to, it was at the Marriott, and I think 
our local Congressman was actually speaking as a keynote 
speaker, which was another reason why I went. So that was the 
draw for me, and we just happened to find this technology. 
Wouldn't it be nice if they had an event like that here locally 
in Frederick?
    Senator Cardin. More outreach.
    Mr. Collins. Yes, and maybe in other locales like that. I 
mean this is a national thing. It is not just in this area but 
anyplace where there is a military organization that develops 
some sort of technology, they should have something more local 
as well as in the big cities to have people there.
    Senator Cardin. That is a good suggestion. You were able to 
enter into licensing agreements and cooperative agreements. 
That could be intimidating. You had the help of, as mentioned 
earlier, TEDCO could help you in regards to some of that, as I 
assume?
    Mr. Collins. Actually for the licensing and the CRADA, 
TechLink was instrumental in that. And of course, I have a 
little bit of experience at negotiating contracts and things 
like that so that helped quite a bit. I have no patent license 
knowledge at all. We actually hired a patent attorney to review 
those licenses for us, but at the same time TechLink 
facilitated all that and made it really a not very painful 
process at all. And the local people, the local patent attorney 
for the Army here in Fort Detrick, he was very, very available 
to us with suggestions and things we had to consider explaining 
things to us. They were all a big help in getting that done.
    Senator Cardin. I am pleased to hear that. I will take your 
suggestion back as to how we can get more opportunities in 
local communities on technology transfer information so that it 
is more widely available. That is a good suggestion. I want to 
get to the workforce issue. Ms. Dorr, if you go beyond your 
current workforce, and we hope that you will because you are 
going to go into these new fields and you are going to need 
more people, can you find them?
    Ms. Dorr. In some cases. Most of the way that I have grown 
has been through talking about what I am doing with the company 
and the conversations lead to I know somebody who, and fill-in-
the-blank what the need I am looking for so far. Then, we still 
are heavily in the graphic design part of the business. And so, 
I have resources that I use, colleges that I go to. We have 
local associations like the American Advertising Federation 
that has portfolio review days for that part of the business. 
So yes, I do think, as we expand, there will be a challenge in 
finding the right people to fit the need and also fit into the 
existing team.
    Senator Cardin. And Mr. Troutman, you are still in a 
HUBZone. You know, we recognize there is some flexibility on 
who you can hire and not everyone has to live in the HUBZone, 
but are you going to be able to find, when you get that prime 
contract, to hire another 15 people. Can you find them?
    Mr. Troutman. It is going to be rough. It is going to be 
rough especially in technology with the technology we are going 
after, solutions with artificial intelligence, machine 
learning. What I am doing is I am active in the High School 
LYNX program. So I am ingratiating and incorporating IT 
professions to the students here at Frederick County and trying 
to get them interested because I will train them myself, you 
know, and that is what I am doing.
    I am planning to see now to try to build my workforce. It 
is a lot of work, but at least programming. Yes, so am I going 
to be able to readily find them if I finally got a contract 
tomorrow? It is going to be a challenge, but give me a year, 
after I put in this work with training the students, and then I 
will at least have programmers.
    Senator Cardin. And as far as access to capital, you did 
not talk about that at all. I take it that was, you were able 
to work that out when you acquired the business?
    Ms. Dorr. I was, but as of the last couple of weeks, I have 
had a need to expand even just a line of credit and talking 
even today to the bank that I work with. We talked about SBA 
Express line of credit.
    Senator Cardin. Good. Mr. Troutman, anything on access to 
capital?
    Mr. Troutman. Yes, we have been with M&T since 2003, and we 
did an SBA loan and line of credit maybe about eight years ago. 
So yes, we are good with them, but we could go back and get 
more. They call me all the time. They say, do you need more, 
and I say no, I am good, right now working on it, working on 
getting some that pushes me, that stretches me. So, yes.
    Senator Cardin. So I don't know who found this panel, but 
this is really a happy panel.
    [Laughter.]
    I must tell you, I mean it is a good way for a hearing to 
conclude, to see that you have been able to use your own 
ingenuity, and when you needed help, you were able to get the 
help you needed. And all of you are going to be expanding. You 
are going to be doing more business. You are all looking for 
the next chapter of business and you are pretty optimistic. You 
are going to get there. We are going to find some prime 
contracts for you, and you are going to have to grow a little, 
but you are going into a new field. So it is exactly what small 
businesses should be doing is looking for innovative ways to 
expand opportunity, which is going to mean job growth, but it 
is also going to mean that you are going to show what 
entrepreneurship is all about.
    And it starts with the individuals, and we have three 
really talented people here before us, so congratulations to 
all three of you.
    Mr. Troutman. Thank you.
    Mr. Collins. Thank you.
    Ms. Dorr. Thank you.
    Senator Cardin. I do not believe I have to keep the record 
open, do I? So I have to for two weeks. Thank you. I appreciate 
that. The record will stay open for two weeks in case someone 
is going to ask questions to you, which we are not planning to 
do that I know of. But anyway, the record will stay open for 
two weeks.
    And with that, the Small Business and Entrepreneurship 
Committee will stand adjourned. Thank you all very much.
    [Whereupon, at 3:46 p.m., the hearing was adjourned.]
  

                                  [all]
</pre></body></html>
